HHS/OIG, Audit -"Nursing Homes and Denial of Payment Remedies in the State of Florida,"(A-04-03-06007)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Nursing Homes and Denial of Payment Remedies in the State of Florida," (A-04-03-06007)
February 27, 2004
Complete
Text of Report is available in PDF format (419 kb). Copies can also be
obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objectives of this audit were to evaluate whether State controls were
adequate to prevent improper Medicaid payments to nursing homes under the denial
of payment remedy, and ensure the mandatory denial of payment remedy for substandard
quality of care was applied in nursing homes that were not in substantial compliance
with the prescribed Medicaid participation requirements.  Our audit included
denial of payment sanctions, which were in effect or should have been in effect
from October 1, 1999 to September 30, 2001.  We found that the State permitted
improper Medicaid payments for new admissions totaling $176,853 ($99,957 Federal
share) to sanctioned nursing homes.  We recommended a financial adjustment
and implementation of additional procedures to ensure payments to provider
are suspended timely.  In response, the State agreed that $135,397 of
the $176,853 ($99,957 Federal share) recommended for adjustment was unallowable.  They
concurred with our recommendation for implementation of additional procedures.